Department of Health and Human Services

                  OFFICE OF

       INSPECTOR GENERAL





          POCKET DOPPLERS

         MANAGEMENT ADVISORY REPORT




          ,.v
                    Richard P. Kusserow
          Jrc       INSPECfOR GENERA

          ltd3a           MAY 1991
                                                        .:.   - -- --..-- --.   - .. -   ------_..   --... __.._-_. __. _--   .   -__ _. - -




                         OFFICE OF INSPECfOR GENERA


The mission of the Office of Inspector Geperal(OI!3), as mandated by Public Law 95- 452
as amended , is to protect the integrity of the Department of Health and Human Servces
(HHS) programs as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits , investigations
and inspections conducted by three OIG operating components: the Office of Audit
Services ,   the Offce of Investigations ,   and the Office of Evaluation and Inspections. The
OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                             OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Services (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance ofHHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended toprdvide                                independent
assessments of HHS. programs and operations in order          to reduce waste ,                       abuse , and
mismanagement and to promote economy and efficiency throughout the Department.


                             OFFICE OF           INTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in                                 the Medicaid
program.

                OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these
inspection reports generate rapid , accurate , and up- to- date information on the effciency,
vulnerability, and effectiveness of departmental programs.

This report was prepared by the Philadelphia regional office under the direction
of Joy Quill , Regional Inspector General and Robert A. Vito , Deputy Regional Inspector
General. Project Staff:
Robert A Katz Project Leader
Cynthia R. Hansford
W. Mark Krushat (Headquarters)
Wayne A Powell
          ,."



Department of Health and Human Services

            OFFICE OF

       INSPECTOR GENERAL





         POCKET DOPPLERS

         MANAGEMENT ADVISORY REPORT




                  Richard P. Kusserow
       (J         INSPECTOR GENERAL

         ltd3a
                     OEI- 03-91- 00461
PUROSE
This report quantifies Medicare reimbursement for in-office ultrasound tests of arteries
and veins conducted with inexpensive screening devices , popularly known as " Pocket
Dopplers. " This report is being provided for informational purposes only to advise the
Health Care Financing Administration (HCF A) of potential savings resulting from its
recent decision to prohibit reimbursement for Pocket Dopplers.

BACKGROUN

Pocket Dopplers are unsophisticated screening devices used by many medical
practitioners to perform ultrasound tests of arteries and veins. A hand-held device , often
shaped like a ballpoint pen , the tyical Pocket Doppler operates on a 9-volt battery.
When activated , the instrument transmits a high frequency soundwave into the tissues.
Analog waveform sounds (comparable to a stethoscope), reflected from internal organs
or the flow of blood , change in frequency by an amount proportional to blood flow
velocity. The reflected sound results in an audible signal. Typically, the Pocket Doppler
is nondirectional (i. , it is incapable of determining the direction of blood flow) and
produces audio signals only. Such tests can be conducted in less than 5 minutes. These
devices are marketed as diagnostic ultrasound equipment and generally cost under
  000.

Approximately 15 manufacturers produce and market Pocket Dopplers. Industry sources
                         000 units are in active use in the medical community.
estimate that at least 100                                                           About
   000 new units were sold in 1990.

Diagnostic ultrasound tests are usually conducted using " mid- level" equipment. This
equipment costs from $15 000 to $60 000 and offers a wide range of sophisticated
options , such as two- dimensional displays , computerized analysis , and color-flow imaging.
More sophisticated devices produce video pictures of blood flow velocities in
combinations of red , blue , and green. Changes in the intensity of color and blood flow
velocity can indicate an irregularity, such as a blockage.

Nationally, Medicare in-office allowances for four major procedure .codes used in
diagnostic vascular ultrasound tests surpassed $88 milion in 1989 , an increase of more
than 31 percent over 1988. These tests reflect an increased frequency in allowed servces
of approximately 25 percent for this I-year period.
Our previous draft report (Low- Cost Ultrasound Equipment , OEI- 03- 88- 01401) reviewed
the appropriateness of Medicare reimbursement- for diagnostic tests conducted with such
inexpensive screening devices. As a result of this study, we recommended that HCF A
prohibit payment for tests conducted with Pocket Dopplers. The HCF A concurred with
this recommendation. However , accurate information regarding potential savings was not
available.

METIODOLOY
This report is based on a two-stage random sample consisting of 480 servces from
Medicare carriers. We selected 60 servces per carrier from 1988 Part B Medicare
Annual Data   (BMA) bilings    for in-office diagnostic   vascular tests. We limited the
servces to four commonly used procedure codes by practitioners of these tests. The
codes are: 93910   (noninvasive studies of lower extremity arteries); 93950 (noninvasive
studies of lower extremity veins); 93860 (noninvasive studies of carotid arteries); and
93890 (noninvasive studies of upper extremity arteries). These procedure codes

represent only a portion of the number of codes for which Pocket Doppler servces could
be biled.

After receiving identifyng information from the carriers , we wrote to the practitioners
requesting detailed data on the tyes of equipment used to      conduct the tests. We
reviewed the responses against pertinent information from scientific publications
manufacturers ' catalogs , and related technical materials to determine if Pocket Dopplers
were used to conduct the tests. We consulted with a Registered Vascular Technologist
who reviewed responses and assisted us in making determinations.

FININGS
         Pocket Dopplers accounted for 7 percent of frequently performed in-office
         ultrasound servces in 1988.



Six-five percent of the providers in our sample (314 of 480) responded to our letters.
Based on our analysis , 7 percent of the servces (22 responses) were performed with
Pocket Dopplers. Medicare allowed $1     600 for these 22 servces.

The number of allowed servces for the four procedure codes in our sample totaled
561 800 in 1988. Applying the 7 percent usage rate and the 65 percent response rate , we
calculate Pocket Dopplers were used for approximately 25      000 servces in   1988.
 ,,-- - - -. - -   ---   -----   ---   - - - --- --- - - - -- - - - - - - - - - - - - - - - -   -- - - -- - --- - - - - - - - - - - - - - - - - -   -- - - - - - - - - - - - - - - - - -   -- - - - - - - - - - -    ----




If non-respondent usage rates were the same as respondent rates , total servces
conducted by Pocket Dopplers could have been as high as 39 000 in 1988.

                         Medicare allowed between $2 and $2. 9 milion for Pocket Doppler servces in
                         1988.

The average Medicare allowance for Pocket Doppler servces in 1988 was $73. 00. Based
on our projection , we estimate that Medicare allowed $2 milion for Pocket Doppler
servces in 1988. If non-respondents and respondents had the same usage rate , an
additional $900 000 could have been allowed for 1988.

                         By prohibiting payment for Pocket Doppler servces , we estimate savings of $30
                         millon in Medicare allowances will be realized over a 5-year period.

The HCFA has agreed to prohibit separate coverage for                                                                                                     Pocket Doppler servces.
assume this coverage decision will be effective by 1992.

Our savings calculations are very conservative. In our calculations , we applied the 65
percent response rate and the 7 percent Pocket Doppler usage rate to the 700 700
allowed servces for the four procedure codes in 1989. Non-respondents were not
included in our calculations even though there is no reason to suspect the usage rate for
non-respondents differs from respondents. We assumed an annual 20 percent increase in
the number of servces -- the actual annual increase from 1987 to 1989 was between 25
and 30 percent. The 1988 average allowed amount of $73 per servce was used in all 5
years. We omitted possible reimbursement increases because of recent legislative
changes designed to minimize such increases.

As shown in the chart below, we estimate that savings of $30 millon in Medicare
allowances will be realized over the next 5 years.



           PROJECTED MEDICARE ALLOWANCES

                                          FOR POCKET DOPPLERS 1992- 1996

                                                                     1992                           1993                                  1994                              1995                               1996

   TOTAL SERVCES                                                        210, 810                     1.452. 972                           1.743. 566                             092. 279                           510 735

   POCKE OOPPLE SERV.                                                      55. 092                         66. 110                              79, 332                            95. 199                          114. 238

   MEDICARE ALLOWANCES                                             $4. 021.716                     $4, 826. 030                         $5, 791.236                       $6. 949. 527                       $8. 339. 374

                                                               TOTAL' MEi5icA-RE'-AiC6wiNCES'-                                                 $29 927:8831
